APPENDIX

APPENDIX
TABLE OF CONTENTS

United States Army Court of Criminal Appeals,
Opinion Affirming Conviction (Jul. 5, 2017)............ 1a
United States Court of Appeals for the Armed
Forces, Opinion Reversing and Remanding
(May 23, 2018)......................................................... 37a
United States Army Court of Criminal Appeals,
Opinion on Remand (Nov. 30, 2018) ...................... 46a
United States Army Court of Criminal Appeals,
Order Denying Reconsideration (Jan. 10, 2019) ... 58a
United States Court of Appeals for the Armed
Forces, Order Denying Review (Jul. 26, 2019) ...... 59a
United States Court of Appeals for the Armed
Forces, Order Denying Reconsideration
(Sep. 16, 2019) ......................................................... 60a
Article 66, UCMJ, 10 U.S.C. § 866 (2018) ............. 61a
Article 67, UCMJ, 10 U.S.C. § 867 (2018) ............. 64a
Article 76, UCMJ, 10 U.S.C. § 876 (2018) ............. 66a

1a
CORRECTED COPY

UNITED STATES ARMY COURT OF
CRIMINAL APPEALS
Before the Court Sitting En Banc
UNITED STATES, Appellee
v.
Sergeant ERIC F. KELLY
United States Army, Appellant
ARMY 20150725
Headquarters, 21st Theater Sustainment Command
David H. Robertson, Military Judge
Major Michael P. Baileys, Acting Staff Judge
Advocate (pretrial)
Colonel Paula I. Schasberger, Staff Judge Advocate
(post-trial)
For Appellant: Zachary D. Spilman, Esquire (argued);
Captain Matthew L. Jalandoni, JA; Zachary D.
Spilman, Esquire (on brief); Captain Katherine L.
DePaul, JA; Captain Matthew D. Bernstein, JA (on
reply brief).
For Appellee: Captain Jennifer A. Donahue, JA
(argued); Colonel Mark H. Sydenham, JA; Lieutenant
Colonel A.G. Courie III, JA; Major Melissa Dasgupta
Smith, JA; Captain Jennifer A. Donahue, JA (on
brief).
5 July 2017
--------------------------------OPINION OF THE COURT
--------------------------------WOLFE, Judge:

2a
After a contested trial of the facts, a court-martial
with enlisted representation convicted appellant,
Sergeant (SGT) Eric F. Kelly, of abusive sexual
contact and sexual assault in violation of Article 120,
Uniform Code of Military Justice, 10 U.S.C. § 920
(2012 & Supp. I 2014) [hereinafter UCMJ]. Appellant
brings numerous claims of error to our attention,
seven of which we discuss below.1 The panel sentenced
appellant to be dishonorably discharged from the
Army, to be confined for one year, to forfeit all pay and
allowances, and to be reduced to the grade of E-1.
In December 2014, SGT RK had just returned from
a deployment in Afghanistan where she had served as
a crew member of a rotary wing medical evacuation
unit. Appellant and SGT RK previously served
together. Appellant invited SGT RK over to his house
where, along with appellant’s wife and other friends,
1 We do not address in depth appellant’s contention that the
military judge’s deviation from the standard instructions from
Dep’t of Army, Pam. 27-9, Legal Services: Military Judges’
Benchbook [hereinafter Benchbook] (10 Sep. 2014) was error. As
appellant did not object to the instructions we test for plain error.
Rule for Courts-Martial [hereinafter R.C.M.] 920(f); United
States v. Davis, 76 M.J. 224 (C.A.A.F. 2017). Having reviewed the
instructions, we do not find error let alone plain and obvious
error.

While the instructions were non-standard, they were not wrong.
For example, when the sexual assault by bodily harm is the
penetrative act itself, the Benchbook provides as a third element
to the offense: that the victim did not “consent” to the touching.
See Benchbook, para. 3-45-14(c) n.2. The military judge in this
case did not instruct on that element. However, he included
identical language into the definition of bodily harm instructing
that “in order to find the sexual act was offensive and
nonconsensual, you must be convinced beyond a reasonable
doubt that Sergeant [RK] did not consent to having her vulva
penetrated by the accused’s penis.”

3a
they played board games and drank alcohol. Both
appellant and SGT RK testified but gave starkly
different versions of what happened next.
Sergeant RK testified that after falling asleep on
appellant’s couch, she awoke to appellant touching
her breast. After pushing his hand away and telling
him to stop, she went to the guest bedroom and fell
back asleep. Sergeant RK again woke up to appellant
touching her, this time as he was removing her pants.
She then testified appellant had sex with her as she
tried to resist. She reported the assault to a mutual
friend the next day.
Appellant, by contrast, testified the sexual
encounter was entirely consensual. Appellant claimed
he and SGT RK had a deeply personal conversation
about her difficult experiences in Afghanistan, which
included airlifting dead children. He said the
conversation turned sexual when SGT RK kissed him.
He conceded touching SGT RK’s breast but stated it
was only upon her invitation after he tried to guess
her breast size. Appellant also agreed he tried to have
sexual intercourse with SGT RK, but could not recall
whether there had been actual penetration.
I. The Numbers Game
During voir dire, the senior member of the panel,
Colonel (COL) F, stated he did not believe a person
who was black-out drunk was capable of consenting.
Appellant challenged the member, but the military
judge denied the challenge. Appellant then waived
any appellate issue by not exercising a peremptory2
challenge. R.C.M. 912(f)(4).

2

Corrected.

4a
Appellant now asserts defense counsel was
ineffective in failing to exercise a peremptory3
challenge. To succeed, appellant must demonstrate
that not using a peremptory4 challenge was deficient,
and that the military judge erred in denying the
defense challenge for cause (i.e. prejudice).5
Nonetheless, we will address appellant’s claim that
his counsel’s performance was deficient.
In determining whether appellant’s counsel at
trial was ineffective we apply the well-settled two
prong test in Strickland v. Washington, 466 U.S. 668,
697 (1984).
Appellant claims his counsel was deficient for
admittedly engaging in the “numbers game.” The
“numbers game” is when a party tactically exercises a
peremptory6 challenge to obtain a favorable number
of members. As a guilty verdict requires the
concurrence of two-thirds of members, under the
3

Corrected.

4

Corrected.

If the military judge did not abuse his discretion in denying the
challenge for cause to COL F, then even if the defense counsel
were deficient in not exercising a peremptory* challenge,
appellant cannot show prejudice from a qualified member
continuing to serve on the court-martial. Appellant’s burden to
establish the claim of ineffective assistance of trial is more
critical in cases (such as this one) where the allegation involves
affidavits from outside the record of trial which are not part of
our normal Article 66(c), UCMJ, review. As we resolve this issue
on the deficiency prong, we do not address one way or the other
whether the military judge erred in denying appellant’s
challenge for cause.
5

* Corrected
6

Corrected.

5a
“numbers game” the government prefers to have
panels composed of multiples of three (e.g. 6, 9, or 12,
panel members). R.C.M. 902(c)(2)(B).
In this case, when it came time for the defense to
exercise a peremptory7 challenge, there were seven
members on the panel. Under the “numbers game,”
the defense counsel’s choice was to leave the panel at
seven members or exercise a peremptory8 challenge
and reduce the panel to six members.
By not exercising a peremptory9 challenge, the
panel of seven required the concurrence of at least five
members to convict appellant. If the defense exercised
a peremptory10 challenge, a guilty verdict would
require the concurrence of only four members. The
exercise of a peremptory11 challenge would have
removed a vote that, all other things being equal, the
government would have needed to prove guilt.
Assume, as appellant contends, that COL F was a
government-friendly panel member. With a seven
member panel, the government would need to
convince COL F and at least four other members of
appellant’s guilt. With COL F removed, the
government would still need to convince at least four
members. As a matter of math, the defense counsel’s
reasoning for not exercising a peremptory12 challenge
was sound.
7

Corrected.

8

Corrected.

9

Corrected.

10

Corrected.

11

Corrected.

12

Corrected.

6a
Of course, panel member selection is not merely a
question of math. Many litigators often pay little
attention to the “numbers game” and focus instead on
shaping the panel based the panel members’ answers
to questions in voir dire. Thus, one can say as a matter
of logic that COL F’s vote would have been irrelevant,
as the government would have been required to have
four votes for guilty whether COL F remained on the
panel or not. But, one cannot say COL F’s presence on
the panel was of no consequence. Panel members
deliberate. The danger of an unfavorable panel
member is not merely they vote against your client, it
is also they may persuade other panel members how
to vote. Perhaps the danger is all the more so when
the member in question will become the panel
president.
This scenario is likely why in United States v.
Newson, our superior court stated they “do not
subscribe to the myth of the ‘numbers game.’” 29 M.J.
17, 21 (C.A.A.F. 1989). However, the context in that
case is important. In Newson, game” because the
military judge altered the order of challenges. The
court found no prejudice, stating there “is no reason to
suspect that a different mix of members would have
produced results more favorable to appellant.” Id.
Indeed that same court stated “[t]here is no question
that in the court-martial system the numerical
composition of the court may be said to be either
‘favorable’ or ‘unfavorable’ to either side.” Id. at 19 n.1.
This case is not Newson. Is there a sound logic
behind the “numbers game”? There is. The Court of
Appeals for the Armed Forces (CAAF) has explicitly
said that certain numbers are “favorable” to one side
or the other. Id. In the same footnote in Newson
quoted above the court described the numbers game

7a
as a matter of “trial tactics and strategy.” Id.
Accordingly, the performance of the defense counsel at
trial was not constitutionally deficient. That, however,
should not be read as a ringing endorsement of the
practice. There is an obvious danger in substituting
math for advocacy.13
II. Improper Argument
Appellant alleges the court-martial committed
plain error when the military judge failed to sua
sponte correct the trial counsel’s findings argument.
Specifically, we address appellant’s claim that the
trial counsel told the panel appellant lied to them
during his testimony.
Part of the government’s strategy at trial was to
admit appellant’s statements regarding the night of
the assault. The government wanted the panel to
question appellant’s reliability and veracity because of
his changing statements. The trial counsel analogized
that appellant had been caught in his own “web of
lies.” We decline to provide appellant relief because: 1)
we find appellant waived any objection to this
argument; and 2) if not waived, the argument did not
amount to plain error.
Part of the government’s strategy at trial was to
admit appellant’s statements regarding the night of
the assault. The government wanted the panel to
question appellant’s reliability and veracity because of
his changing statements. The trial counsel analogized
As a coda to this analysis we note the “numbers game” will
come to an end with the recent amendments to the UCMJ
establishing fixed panel sizes. National Defense Authorization
Act for Fiscal Year 2017, Pub. L. 114-328, § 5187 (2016)
(Assembly and Impaneling of Members and Related Matters).
13

8a
that appellant had been caught in his own “web of
lies.” We decline to provide appellant relief because: 1)
we find appellant waived any objection to this
argument; and 2) if not waived, the argument did not
amount to plain error.
A. Waiver
The Rules for Courts-Martial use the term
“waiver” in two different contexts. On some occasions,
a rule will state that an objection is “waived, absent
plain error.” See, e.g., R.C.M. 920. In other cases the
rule will say the objection is “waived” without any
condition for plain error.
R.C.M. 919(c) governs argument on findings. The
rule states: “[f]ailure to object to improper argument
before the military judge begins to instruct the
members on findings shall constitute waiver of the
objection.” R.C.M. 919(c). The rule has no “plain error”
condition.
In the recent case of United States v. Ahern, 76
M.J. 194 (C.A.A.F. 2017), our superior court discussed
this difference while interpreting Military Rule of
Evidence [hereinafter Mil. R. Evid.] 304. The waiver
provision of Mil. R. Evid. 304 is virtually identical to
the rule at issue here, R.C.M. 919(c). Our superior
court wrote the rule “unambiguously provides that
any claim arising under [the rule] is waived absent an
objection.” Id. at 197. The CAAF noted the difference
between the two types of waiver and stated “[t]his is
not a case where the rule uses the word ‘waiver’ but
actually means ‘forfeiture.’” Id. The court in Ahern
found this court erred when we tested for forfeiture
and plain error. Id. at 198.
To avoid making the same error here, and applying
Ahern to this case, we find appellant waived any

9a
objection to the trial counsel’s argument. As a matter
of
statutory
interpretation,
R.C.M.
919
“unambiguously” provides “failure to object . . .shall
constitute waiver of the objection” (emphasis added).14
R.C.M. 919(c).
We duly recognize in numerous prior cases, both
this court and our superior court have tested improper
arguments for forfeiture and plain error.15 See, e.g.,
United States v. Fletcher, 62 M.J. 87, 88 (C.A.A.F.
2005). However, the plain language of the rule, and
our superior court’s decision in Ahern, compel our
result here. To find otherwise would mean the same
“unambiguous” words have polar opposite meaning
within the same regulatory structure. It would also
demand we give no meaning to the stark differences
between R.C.M. 919(c) and 920(f), which were
promulgated simultaneously. Such a finding would be
contrary to the plain language of the rule and contrary
to the CAAF’s decision in Ahern. To the extent we are
presented with contrary case law, we follow our
superior court’s most recent decision.

The obvious effect of Ahern is to encourage timely objections at
trial. Timely objections allow the military judge to issue
corrective instructions (or declare a mistrial if the error is too
egregious to be corrected) and prevent additional erroneous
argument. In general, a rule properly promulgated by the
President is binding on this court unless it violates an applicable
statute such as the UCMJ or the Constitution. Thus, we discuss
here only circumstances where application of the rule is not of a
constitutional magnitude (e.g. commenting on the accused’s right
to silence).

14

This court may “notice” waived error. See United States v.
Chin, 75 M.J. 220 (C.A.A.F. 2016); UCMJ, art. 66(c). Thus, if
application of waiver results in an unbalance, equilibrium may
be restored by a Court of Criminal Appeals (CCA).
15

10a
B. Plain Error
Ahern was decided after we held oral argument in
this case, so the parties did not have the opportunity
to address its impact. Accordingly, we will also
address the error as it was assigned. We do not find
the trial counsel’s argument amounted to plain error.
Plain error occurs when: 1) there is error; 2) the error
is plain or obvious; and 3) the error results in material
prejudice to a substantial right of the accused. United
States v. Rodriguez, 60 M.J. 87, 88-89 (C.A.A.F. 2004).
Our superior court stated “[c]alling the accused a
liar is a dangerous practice that should be avoided.”
Fletcher, 62 M.J. at 182. The court stopped short,
however, of stating that such comments are per se
error. The question is then, when is it error for a party
(especially the trial counsel) to label the testimony of
a witness a “lie”? And, when may that witness be
called a “liar”?
Our superior court has described the difference
between permissible and impermissible arguments as
an “exceedingly fine line which distinguishes
permissible advocacy from improper excess.” Id. at
183. On which side of that line one falls will depend
on whether the counsel is arguing a permissible
inference from the evidence or engaging in “namecalling.” United States v. White, 486 F.2d. 204, 207 (2d
Cir. 1973).
When an accused testifies, the veracity of the
testimony is at issue. The trial counsel may properly
point out the incredulous nature of the testimony and
point out contradictions with other evidence. Counsel
may also call witnesses to testify that in their opinion
the accused is not a truthful person. If a person can be
shown to have lied on one or more occasion, it is also

11a
permissible to argue the panel should not believe the
testimony in other regards. Indeed, trials often turn
on such credibility determinations.
The CAAF’s decision in Fletcher cited White
heavily. In White, the Second Circuit remonstrated
the prosecutor for calling the defendant a liar. 486
F.2d. at 204-05. In a subsequent case, however, that
same court noted “because defendant had put his
credibility in issue, the prosecutor’s arguments
portraying him as a liar were not improper.” United
States v. Edwards, 342 F.3d 168, 181 (2d Cir. 2003);
see also United States v. Coriaty, 300 F.3d 244, 255-56
(2d Cir. 2002) (observing it is generally not improper
for the prosecutor to use the words “liar” and “lie” to
characterize disputed testimony when the witness’s
credibility is clearly in issue) (internal citations
omitted).
Likewise, the D.C. Circuit has stated they could
“conceive of no reason in law why the words ‘lie’ and
‘lying’ should be banned from the vocabulary of
summation, particularly in cases that turn on the
defendant’s credibility.” United States v. Donato, 99
F.3d 426, 432 (D.C. Cir. 1996) (citing United States v.
Dean, 55 F.3d 640, 665 (D.C. Cir. 1995), cert. denied,
516 U.S. 1184 (1996)) (internal quotations omitted);
see also Virgin Islands v. Edwards, 233 F. App’x 167,
173 (3rd Cir. 2007).
Summarizing federal case law, the Fourth Circuit
Court of Appeals said the following:
We have not determined whether
describing a defendant as a “liar” is, per
se, improper. But the Second, Seventh,
Eighth, and Ninth Circuits have held
that the government may refer to a

12a
defendant as a liar under some
circumstances. E.g., United States v.
Moreland, 622 F.3d 1147, 1161-62 (9th
Cir. 2010) (allowing where based on
reasonable
inferences
from
the
evidence); [Coriaty, 300 F.3d 244, 255
(2nd Cir. 2002)] (permitting as long as
not excessive or inflammatory); United
States v. Shoff, 151 F.3d 889, 893 (8th
Cir. 1998) (finding no misconduct as long
as the prosecutor is arguing about the
evidence); United States v. Manos, 848
F.2d 1427, 1437 (7th Cir. 1988)
(deducing no undue prejudice from
labeling “the teller of [a] falsity a liar”).
United States v. Powell, 680 F.3d 350, 358 (4th Cir.
2012).
On the other hand, the First Circuit stated the
impropriety of a prosecutor calling the defendant a
“liar” and a “crook” is “so clear as not to brook serious
discussion.” United States v. Rodriguez-Estrada, 877
F.2d 153, 158 (1st Cir. 1989); United States v. Moore,
11 F.3d 475, 481 (4th Cir. 1993) (“We have recognized
that it is highly improper for the government to refer
to a defense witness as a liar.”). Perhaps the difference
lies between arguing that testimony was intentionally
false (a lie) and calling the witness a liar (namecalling).
Answering this question likely applies not only to
the testimony of the accused. When an accused takes
the stand, he or she is subject to same credibility
determinations as other witnesses. The United States
Supreme Court has stated that “[o]nce a defendant
takes the stand, he is subject to cross-examination

13a
impeaching his credibility just like any other witness.”
Portuondo v. Agard, 529 U.S. 61, 70 (2000) (internal
quotations and citations omitted); see also United
States v. Piren, 74 M.J. 24 (C.A.A.F. 2015). A
prohibition on the trial counsel calling the accused’s
testimony a lie may, therefore, be equally applicable
to the testimony of his accuser.
However, we need not decide definitively in this
case which side of the line the trial counsel’s argument
fell.16 This is a case of unpreserved error. Assuming
the trial counsel’s argument was error, it was not
plain and obvious error for two reasons.
First, error is “plain” when it is “obvious” or “clear
under current law.” United States v. Olano, 507 U.S.
725, 734 (1993). As the prior discussion shows, the
trial counsel’s arguments were not clearly error under
current law.
Second, we look to see how obvious the error was
in the context of the trial. When examining this prong,
we ask whether the error was so obvious “in the
context of the entire trial” that “the military judge
should be ‘faulted for taking no action’ even without
an objection.” United States v. Gomez, 76 M.J. 76, 81
(C.A.A.F. 2017) (citing United States v. Burton, 67
M.J. 150, 153 (C.A.A.F. 2009) (quoting United States
v. Maynard, 66 M.J. 242, 245 (C.A.A.F. 2008))); see
Consider the following possible arguments ranging from the
permissible to the clearly impermissible: “The evidence shows
the accused deliberately tried to deceive when he testified that .
. . ;” “The evidence shows the accused lied when he testified that
. . . ;” “The accused lied when he testified that . . . ;” “The evidence
shows the accused is a liar;” “The accused is a liar;” “I think the
accused is a liar who lied to you when . . . ;” and “Trust me, I’ve
been working on this case for months, the accused is a liar.”
16

14a
also United States v. Frady, 456 U.S. 152, 163 (1982)
(noting that error is clear if “the trial judge and
prosecutor [would be] derelict in countenancing it,
even absent the defendant’s timely assistance in
detecting it”). The trial counsel’s arguments were not
so wrong that we could fault the military judge for not
sua sponte intervening.
We cannot say appellant meets either definition of
plain and obvious error. Therefore, we do not find
appellant has met his burden of establishing plain
error. The argument in this case is not nearly as
severe as that which was made in Fletcher.
We therefore answer this question identically to
our superior court in United States v. Jenkins:
Applying the foregoing principles to trial
counsel’s argument in this case, we hold
that there was no plain error. Although
trial counsel repeated called appellant a
thief and a liar, defense counsel did not
find the argument sufficiently offensive
to warrant an objection or a request for a
curative instruction.
54 M.J. 12, 20 (C.A.A.F. 2000)
Accordingly, we leave this issue where we started,
with our superior court’s guidance that “[c]alling the
accused a liar is a dangerous practice that should be
avoided.” Fletcher, 62 M.J. at 182 (emphasis added).
III. The Rules of Completeness
At trial, the prosecution called U.S. Army Criminal
Investigation Command (CID) Special Agent (SA) AG
to testify about statements appellant made during an
interrogation. On cross-examination, the defense
attempted to elicit other statements made by

15a
appellant during the same interrogation. What
followed was a tripartite misunderstanding of the
interplay between the two “rules of completeness” in
the Military Rules of Evidence.
After the trial counsel finished the direct
examination, the defense counsel asked SA AG about
other statements appellant made during the
interrogation. After the military judge sustained the
trial counsel’s hearsay objection, the defense counsel
said the following:
[A]t this time, we would request that
under the “rule of completeness” that - as portions of the accused’s statement
have been offered by the prosecution,
that the entire statement - - being that
the - - made by the accused be permitted
to be questioned by the defense pursuant
to Rule 806.
The military judge directed an Article 39(a),
UCMJ, session to consider appellant’s objection. The
defense counsel explained:
The
defense
believes
that
the
government opened the door to this line
of questioning and to permit the defense
to offer the rest of the statement offered
- - that the accused gave under the “rule
of completeness” as this was not
testimony that was only offered to prove
- - to demonstrate an inconsistent
statement. . . . And as the - - one of the
charged offenses, events that happened
in the bedroom, we believe that, at the
very least, a mistake to fact as to consent
has been raised. And therefore, we

16a
should be able to discuss the rest of the
statement with the individual that he - who received that statement.
The military judge found this explanation
confusing and asked the defense, “So what specifically
do you want to ask this witness, and what rule allows
its admissibility?”
The defense counsel responded the remainder of
the accused’s statement was admissible as the “rule of
completeness” under Mil. R. Evid. 806. The military
judge then questioned whether counsel was citing the
correct rule. The defense apologized, admitted he was
citing the wrong rule, and that he was looking for the
correct rule.
The military judge asked if the defense had
intended to cite Mil. R. Evid. 106. The defense counsel
agreed, and told the judge “Yes. That’s exactly the rule
we were thinking of.”
It was not the right rule.
“Under the Military Rules of Evidence . . . there are
two distinct rules of completeness.” United States v.
Rodriguez, 56 M.J. 336, 339 (C.A.A.F. 2002). They are
Mil. R. Evid. 106 and 304(h)(2). Our superior court in
Rodriguez explained the difference between the two.
Id. In short, Mil. R. Evid. 106 applies to written or
recorded statements made by any person, and Mil. R.
Evid. 304(h)(2) applies to statements made by the
accused whether in writing, recorded, or oral.
As Mil. R. Evid. 106 does not apply to oral
statements, the military judge correctly determined
that Mil. R. Evid. 106 was inapplicable to appellant’s
oral statement to SA AG. No one discussed the rule
that was the most likely applicable, Mil. R. Evid.

17a
304(h)(2). The CAAF explained the effect of Mil. R.
Evid. 304(h)(2) as follows:
Rule 304(h)(2): (1) applies to oral as well
as written statements; (2) governs the
timing under which applicable evidence
may be introduced by the defense; (3)
permits the defense to introduce the
remainder of a statement to the extent
that the remaining matter is part of the
confession or admission or otherwise is
explanatory of or in any way relevant to
the confession or admission, even if such
remaining portions would otherwise
constitute inadmissible hearsay; and (4)
requires a case-by-case determination as
to whether a series of statements should
be treated as part of the original
confession or admission or as a separate
transaction or course of action for
purposes of the rule.
Rodriguez, 56 M.J.. at 341-42. As the correct rule was
not discussed, we are faced with an undeveloped
record on appeal. There are two rules of completeness.
As the defense counsel told the military judge that
Mil. R. Evid. 106 was “exactly” the rule he was
referring to, the correct rule was never identified. The
military judge’s ruling on Mil. R. Evid. 106 was
correct. The better rule, Mil. R. Evid. 304(h)(2), was
never mentioned. Accordingly, the “case-by-case”
determination on whether the statements were part of
the same statement never happened.
Nonetheless, we need not dwell on whether any
error was preserved (unclear) or whether we would
under Article 66(c), UCMJ, notice the error if forfeited

18a
(we likely would, given these facts), as appellant was
clearly not prejudiced by any error. The defense
counsel sought to admit, through SA AG, appellant’s
version of events about the alleged sexual assault.
Appellant took the stand and testified to exactly this
same information. Accordingly, we cannot find
prejudice.
IV. Improper Panel Questions
During trial, the panel asked a series of questions
regarding past adulterous acts by appellant.
Appellant asserts on appeal the member’s repeated
questions demonstrate they were unable to follow the
military judge’s instructions to ignore this
information. Therefore, appellant argues, the military
judge should have granted appellant’s request for a
mistrial.
The sequence of events is important and requires
some explanation. The defense at trial was any sexual
contact between appellant and SGT RK was
consensual. To buttress this theory, defense counsel
elicited that appellant told his wife he had consensual
intercourse with SGT RK shortly after it happened.
Appellant’s wife testified she was a light sleeper
and did not hear any evidence of an assault. After
appellant’s wife finished testifying, a panel member
asked whether appellant had ever cheated on her
before. The military judge sustained the defense
objection.
Appellant then testified. The same panel member
asked appellant if he had ever been unfaithful to his
wife. Again, the military judge sustained the defense
objection.

19a
Near the conclusion of appellant’s testimony, a
third question was asked regarding appellant’s
infidelity. This time, the defense made the tactical
decision to answer the question and did not object.
Appellant testified that on one prior occasion, he had
an affair. He further explained during this instance he
also informed his wife of the transgression. He also
testified the affair had not resulted in any allegation
of sexual assault or sexual misconduct. Appellant’s
testimony successfully framed his prior affair as being
consistent with his version of what happened during
the alleged assault. That is, he had cheated on his wife
when he engaged in consensual conduct with SGT RK,
just as he had before.
The military judge ultimately instructed the
members to disregard any evidence of prior marital
infidelity by appellant. Notwithstanding that
instruction, the panel interrupted deliberations to ask
one more question: “When did SGT Kelly tell his wife
about his first adulterous event?” The military judge
again instructed the members to ignore issues of
adultery. Appellant did not object to the military
judge’s instructions or request additional instructions.
However, after the panel members returned a guilty
verdict appellant moved for a mistrial.
A mistrial is appropriate when “manifestly
necessary in the interest of justice because of
circumstances arising during the proceedings which
cast substantial doubt upon the fairness of the
proceedings.” R.C.M. 915(a). We do not find the
military judge abused his discretion in denying
appellant’s request for a mistrial.
Panel members normally have no formal training
in the law. In general, and in this case, panel members

20a
are not offered a chance to explain why they ask the
questions they do. Also, the military judge does not
explain the legal basis as to why an objection to a
question is sustained. Indeed, when a question is
improper such an explanation would often compound
the problem the question presents.
In this case, the defense presented the panel with
testimony from appellant and his wife there had been
no sexual assault and instead there was a consensual
event where appellant cheated on his wife. The panel
was required to judge the credibility of the testimony
in light of the other evidence. Questions about
appellant’s marriage and relationship with his wife
were probative of appellant’s wife’s bias and motive in
testifying. The final panel question regarding “when”
he told his wife of the first affair would help explain
the similarity of the two events.17 In other words, from
the perspective of a panel member, adultery was
relevant.
To find prejudice to appellant, we would need to
find the panel wanted to know of prior adulterous acts
because they believed someone who would commit
adultery was more likely to commit sexual assault. We
discount this rational for two reasons. First,
appellant’s defense was he did indeed commit
(consensual) adultery. That is, appellant’s very
defense depended on the panel not making such farfetched assumptions. Second, the panel’s final
question—about when appellant told his wife about
the prior affair—demonstrates they were focused on
We speak only of logical relevance under Mil. R. Evid. 402, not
legal relevance under Mil. R. Evid. 403. We do not dispute the
military judge’s ruling to keep issues of adultery out of the courtmartial on Mil. R. Evid. 403, Mil. R. Evid. 404, or other grounds.
17

21a
the credibility of appellant’s story, not whether
appellant was a bad person.
Considering the entire record, the fact that the
defense placed the issue of adultery squarely before
the panel when appellant testified about his prior
affair, considering appellant did not request or ask for
any additional instructions to the members, and given
the high threshold to require a mistrial, we do not find
the military judge abused his discretion in denying
the defense request for a mistrial.
V. Prior Inconsistent Statements, Extrinsic Evidence,
and Hearsay
The defense called Specialist (SPC) EU in their
case in chief. Specialist EU was a mutual friend of
both SGT RK and appellant. The morning after the
charged offenses, SPC EU gave SGT RK a ride. It was
at this time that SGT RK told SPC EU what happened
the night before. The defense asked SPC EU to repeat
a few of SGT RK’s statements. The government then
asked SPC EU to repeat other statements SGT RK
made that morning.
A. The Direct Examination
The defense asked whether SGT RK said she was
awake or asleep during “the events that occurred on
the couch.” Specialist EU testified SGT RK said she
was awake. The defense also asked the witness to
repeat whether SGT RK said what appellant’s wife
had told SGT RK that morning. Specialist EU said
SGT RK told him appellant’s wife was upset and had
asked SGT RK to leave.
Both statements were inconsistent with SGT RK’s
testimony at trial. However, offered through SPC EU,

22a
they were extrinsic evidence of a prior inconsistent
statement.
Extrinsic evidence of a prior inconsistent
statement by a witness is not admissible
unless the witness is afforded an
opportunity to explain or deny the same
and the opposite party is afforded an
opportunity to interrogate the witness
thereon, or the interests of justice
otherwise require. This provision does
not apply to admissions of a partyopponent as defined in Mil. R. Evid.
801(d)(2).
Mil. R. Evid. 613.
When SGT RK was on the stand, the defense never
asked SGT RK whether she made the allegedly
inconsistent statements. If a witness admits making a
prior inconsistent statement, extrinsic evidence of the
statement is prohibited. See United States v. Gibson,
39 M.J. 319 (C.A.A.F. 1994); United States v. Harcrow,
65 M.J. 190 (C.A.A.F. 2007). Again, however, no
objection was made to the testimony.
B. The Cross Examination
The trial counsel began the cross-examination of
SPC EU by laying a foundation for the “excited
utterance” hearsay exception. The direct examination
already established SPC EU and SGT RK talked
about the alleged assault while driving away from
appellant’s house. Specialist EU stated SGT RK
became emotional and was crying. He then agreed
that she was crying “a lot.”
The trial counsel then sought to ask SPC EU about
the remainder of the conversation. Specifically, the

23a
government asked SPC EU if SGT RK told him she
had been raped. The defense objected on two
grounds—the testimony was hearsay and was beyond
the scope of the direct examination.
The trial counsel explained to the military judge
the defense “asked about the conversation . . . . We are
simply asking for clarification in the context of the
conversation.”
The military judge overruled appellant’s objection
but without explanation. Neither party further
developed the record. Specialist EU then testified that
the morning after the alleged assault, SGT RK told
him appellant raped her.
C. Analysis
On appeal, appellant claims the statements
admitted by the government were inadmissible
hearsay. We find the military judge did not err in
admitting the statements because either they were an
excited utterance18 or because the defense opened the
door to putting the conversation in context.
At issue is whether the trial counsel may properly
admit statements made by SGT RK to SPC EU in
order to more fully explain the context of the
conversation. The defense improperly introduced
extrinsic evidence of prior inconsistent statements
that, as they were narrow questions, failed to provide
context to SGT RK’s conversation with SPC EU. The
Counsel on appeal do not address the excited utterance issue.
The first questions the trial counsel asked SPC EU were about
SGT RK’s emotional state. She was “emotional” and crying “a lot”
and just left the scene of the assault for the first time. Only after
laying the foundation did the trial counsel begin eliciting
hearsay.
18

24a
government then sought to introduce the context of
the conversation.
We have recognized at least four instances in
which prior statements of a witness are relevant to
rehabilitate the witness’s credibility. They are:
(1) to place a purported inconsistent
statement in context to show that it was
not really inconsistent with a witness’
trial testimony; (2) to support the denial
of making an inconsistent statement; (3)
to refute the suggestion that the witness’
memory is flawed due to the passage of
time; and (4) to refute an allegation of
recent fabrication, improper influence, or
motive.
United States v. Adams, 63 M.J. 691, 696-97 (Army Ct.
Crim. App. 2006) (internal citations omitted).
Here, the defense tried to portray the conversation
between SPC EU and SGT RK, made shortly after the
alleged assault, as starkly inconsistent with SGT RK’s
trial testimony. This was not a fair description.
Sergeant RK had tearfully told SPC EU she had been
groped on the couch, “raped” in the bedroom, and she
awoke with no pants on.
The trial counsel explained to the military judge
the statements elicited by the defense needed
“context” to be understood. Neither party ever asked
for a limiting instruction.
As our superior court stated in United States v.
Martin,
The invited error doctrine prevents a
party from creating error and then
taking advantage of a situation of his

25a
own making on appeal. As a result,
invited error does not provide a basis for
relief. The question of whether trial
defense counsel invited an error at trial
is a question of law, which we review de
novo.
75 M.J. 321, 325 (C.A.A.F. 2016) (internal citations
and quotations omitted).
In United States v. Jumping Eagle, the Eighth
Circuit addressed an issue almost the same as here:
“[I]t is fundamental that where a defendant ‘opens the
door’ or ‘invites error,’ there can be no reversible
error.” 515 F.3d 794, 801 (8th Cir. 2008) (internal
citation omitted). “Accordingly, we have allowed the
use of otherwise inadmissible evidence, including
hearsay statements, to clarify, rebut, or complete an
issue opened up by defense counsel on crossexamination.” Id. The court summarized the issue as
follows:
Jumping Eagle first brought up this
conversation during Mandy’s crossexamination, when he queried: “[J.J.]
told you that this had happened over 20
times to him, didn’t he?” During redirect
of Mandy, the government asked her
what J.J. had told her about the abuse.
Jumping Eagle’s inquiry of Mandy,
opened the door, permitting further
evidence of the conversation between
Mandy and J.J. As a result, the district
court did not commit reversible error by
admitting the testimony.
Id. Accordingly, even if not an excited utterance, we
cannot find the military judge erred in overruling the

26a
defense objection. “Otherwise, preventing the
Government from walking through the door already
opened by the defense would have left the members
with a skewed view of the evidence.” Martin, 75 M.J.
at 327; See United States v. Banks, 36 M.J. 150, 162
(C.M.A. 1992) (noting that evidence “may be admitted
in rebuttal when a party ‘opens the door’ by
introducing potentially misleading testimony.”)
(citation omitted); see also United States v. Segines, 17
F.3d 847, 856 (6th Cir. 1994) (allowing evidence on the
same issue “to rebut any false impression that might
have resulted from the earlier admission”) (citation
and internal quotation marks omitted).
Judge Cox addressed this same issue through a
different lens in United States v. McCaskey:
In my view, this is not a hearsay issue at
all. The proper basis for admission of the
statements is that they were relevant
evidence -- made so by the defense -- and
it was necessary and proper for the
factfinder to know their content in order
to understand the witness’ explanation
of the changes. The defense cannot be
heard to complain that it has a right to
present an abbreviated or distorted
picture of the facts to the court.
30 M.J. 188, 194 (C.M.A. 1990) (Cox, J., concurring)
As we find no error, we do not answer the question of
whether SPC EU’s testimony would have been
otherwise admissible as a prior consistent statement,
or whether the admission of the statement was
harmless in the context of a trial in which SGT RK’s

27a
several reports of being sexually assaulted were also
admitted through other witnesses.19
VI. Factual Sufficiency
Appellant testified at this trial. If believed,
appellant’s version of events would result in a finding
of not guilty. Consistent with our Article 66(c), UCMJ,
responsibilities we conducted a factual sufficiency
review.
Article 66(c), UCMJ, provides that this court may
“weigh the evidence, judge the credibility of witnesses,
and determine controverted questions of fact.” When
exercising this authority, this court does not give
deference to the decisions of the trial court (such as a
finding of guilty). United States v. Washington, 57
M.J. 394, 399 (C.A.A.F. 2002) (A court of criminal
appeals gives “no deference to the decision of the trial
court” except for the “admonition . . . to take into
account the fact that the trial court saw and heard the
witnesses.”).
We note the degree to which we “recognize” or give
deference to the trial court’s ability to see and hear the
witnesses will often depend on the degree to which the
credibility of the witness is at issue. United States v.
Davis, 75 M.J. 537, 546 (Army Ct. Crim. App. 2015),
aff’d on other grounds, 76 M.J. 224 (C.A.A.F. 2017).
During cross-examination of SGT RK, the defense counsel
inferred she was inflating her testimony at trial by pointing out
that many of the facts had not been included in her statement to
CID. The thrust of the cross-examination was that she
elaborated (i.e. “recently fabricated”) her story since being
interviewed by CID. See Mil. R. Evid. 801(d)(1). Her statement to
SPC EU was consistent with her trial testimony and predated
the statement to CID, although it also lacked the specificity of
her trial testimony.
19

28a
Given this deference, we credit SGT RK’s version
of events. See also United States v. Crews, ARMY
20130766, 2016 CCA LEXIS 127, at *11-12 (Army Ct.
Crim. App. 29 Feb. 2016) (mem. op.) (“The deference
given to the trial court’s ability to see and hear the
witnesses and evidence—or ‘recogni[tion]’ as phrased
in Article 66, UCMJ—reflects an appreciation that
much is lost when the testimony of live witnesses is
converted into the plain text of a trial transcript.”).
The evidence here is factually sufficient to support the
verdict.
VII. Can the Military Judge Require an Accused to
Testify to Raise a Mistake of Fact Defense?
We briefly discuss an issue raised by appellant in
his R.C.M. 1105 submission to the convening
authority. Appellant claimed that the night prior to
the alleged assault, SGT RK kissed appellant. The
defense filed a motion under Mil. R. Evid. 412 to admit
the kiss as evidence of a reasonable mistake of fact as
to consent.
[W]hether evidence is constitutionally
required — so as to meet the [Mil. R.
Evid.] 412(b)(1)(C) exception to [Mil. R.
Evid.] 412’s general prohibition of sexual
behavior or predisposition evidence —
demands the ordinary contextual inquiry
and
balancing
of
countervailing
interests, e.g., probative value and the
right to expose a witness’s motivation in
testifying versus the danger of
harassment, prejudice, confusion of the
issues, the witness’ safety, or evidence
that is repetitive or only marginally
relevant. This balance is bounded on the

29a
one hand by the broad discretion of trial
judges and rulemakers’ broad latitude
under the Constitution to establish rules
excluding evidence from criminal trials,
and on the other by the Constitution’s
guarantee of a meaningful opportunity to
present a complete defense.
United States v. Gaddis, 70 M.J. 248, 252 (C.A.A.F.
2011) (internal citations and quotations omitted).
Here, the defense wanted to ask SGT RK about the
kiss on cross-examination. Sergeant RK, however in a
closed Article 39(a), UCMJ, session pursuant to Mil.
R. Evid. 412, denied the kiss happened. The military
judge excluded evidence regarding the kiss unless
appellant testified.
An accused is not required to testify to establish a
mistake of fact defense. United States v. Jones, 49 M.J.
85, 91 (C.A.A.F. 1999). However, to warrant an
instruction on the mistake of fact defense there must
be “some evidence of an honest and reasonable
mistake to which the members could have attached
credit if they had so desired.” United States v.
Hibbard, 58 M.J. 71, 75 (C.A.A.F. 2003).
In other words, there is no per se requirement an
accused testify to establish a mistake of fact defense,
but evidence the accused honestly and reasonably
believed the victim had consented must come from
somewhere. In many cases, the only source of
admissible evidence about the accused’s subjective
belief the victim consented may well be from the
accused himself.
Here, only appellant and SGT RK could testify
about the kiss—and SGT RK flatly denied it.
Therefore, SGT RK’s testimony would result in no

30a
evidence of a kiss, let alone the accused was honestly
or reasonably mistaken about SGT RK’s consent
because of a kiss. Having SGT RK testify there was no
kiss would not be some evidence of a kiss. See id. As
SGT RK’s denial of a kiss would not be any evidence,
let alone “some evidence” of a defense, it was not
constitutionally required under Mil. R. Evid. 412. Put
differently, appellant does not have a constitutional
right to admit evidence there was no kiss.
However, even assuming the military judge erred
in restricting the cross-examination of SGT RK, we
cannot find prejudice to appellant. UCMJ art. 59(a).
Appellant took the stand and testified about the kiss.
Accordingly, there was no prejudice when appellant
was prevented from asking SGT RK about a kiss.
VIII. Cross-examining the Accused on his Preparation
for Testifying
While cross-examining appellant, trial counsel
asked a series of questions designed to elicit that
appellant had been well-prepared to testify. Appellant
was asked several questions about having access to
and reviewing the evidence in the case, as well as his
ability to speak to his attorneys before testifying.
United States v. Carpenter, 51 M.J. 393 (C.A.A.F.
1999), addressed a similar issue on whether such
questions were an inappropriate commentary on an
accused’s exercise of constitutional rights. Id. at 39596. In Carpenter, the trial counsel specifically argued
the accused testified with the benefit of having first
seen all the government’s evidence. The CAAF stated:
This Court has not specifically ruled on
the propriety of a prosecution argument
that an accused has had the opportunity
to shape his testimony by his presence

31a
throughout the trial and opportunity to
hear all the witnesses. In Agard v.
Portuondo, 117 F.3d 696, 709 ([2d Cir.]
1997), the Second Circuit held, in a split
decision, that such an argument violates
the Sixth Amendment.
Id. at 396. Ultimately, our superior court did not
address the issue of whether such arguments are per
se impermissible, as they decided that any error did
not amount to plain error.
Subsequent to the CAAF’s decision in Carpenter,
however, the Supreme Court had the opportunity to
consider Agard v. Portuondo 529 U.S. 61 (2000), and
stated when an accused testifies last it is “quite
impossible” for “the jury to evaluate the credibility of
the defendant’s testimony while blotting out from its
mind the fact that before giving the testimony the
defendant had been sitting there listening to the other
witnesses.” Id. at 68. The Court concluded that:
A witness’s ability to hear prior
testimony and to tailor his account
accordingly, and the threat that ability
presents to the integrity of the trial, are
no different when it is the defendant
doing the listening. Allowing comment
upon the fact that a defendant’s presence
in the courtroom provides him a unique
opportunity to tailor his testimony is
appropriate -- and indeed, given the
inability to sequester the defendant,
sometimes essential -- to the central
function of the trial, which is to discover
the truth.

32a
Id. at 73. Given the Supreme Court’s ultimate
resolution of the very case that gave the CAAF pause
in Carpenter, we see no error, let alone plain error, in
the trial counsel’s questions.
IX. Mandatory Sentences and Article 66(c), UCMJ
In his final assignment of error, appellant asks
that we set aside the mandatory sentence of a
dishonorable discharge as being too severe. We
conclude we lack the authority to give appellant his
requested relief.
Congress amended Article 56, UCMJ, in 2013 to
read, in relevant part, as follows:
While a person subject to this chapter
who is found guilty of [sexual assault]
shall be punished as a general courtmartial may direct, such punishment
must include, at a minimum, dismissal
or dishonorable discharge, except as
provided for in section 860 of this title
(article 60) [10 U.S.C. § 860].
The article requires that “such punishment must
include” a “dishonorable discharge” in this case. The
only exception to the mandatory minimum is a
reference to the convening authority’s ability to
reduce the sentence at initial action, in two very
limited circumstances.20 There is no exception

Under Article 60(c)(4)(B-C), UCMJ, the convening authority
may set aside a mandatory minimum when: 1) the prosecutor so
recommends based on the accused’s substantial assistance in
another case; and 2) as part of a pretrial agreement it is agreed
that the dishonorable discharge will be reduced to a bad-conduct
discharge.
20

33a
provided for a sentence reduction as part of our Article
66(c), UCMJ, authority.21
Additionally, Article 66(c), UCMJ, limits our
authority to give relief in a case with a mandatory
punishment. “Article 66(c), UCMJ, empowers the
CCAs to ‘do justice,’ with reference to some legal
standard, but does not grant the CCAs the ability to
‘grant mercy.’” United States v. Nerad, 69 M.J. 138,
145 (C.A.A.F. 2010). When a sentence is mandatory as
a matter of law, there is no “legal standard” that
would allow us to set the sentence aside.
United States v. Curtis, 52 M.J. 166 (C.A.A.F.
1999), is the closest case we could find on point. In that
case, the CAAF set aside the appellant’s death
sentence. The court concluded the CCA could order a
rehearing on sentence or reassess the sentence and
approve the mandatory life sentence. The court did
not provide for the CCA approving a sentence less
than the mandatory sentence.
Appellant’s matters submitted pursuant to R.C.M.
1105 contain numerous letters and other mitigating
material. However, as we see ourselves as lacking the
authority to provide relief, we do not reach the
The mandatory minimum punishment contained in Article 56,
UCMJ, is unique. The other mandatory punishments in the
UCMJ are contained directly in their respective punitive articles
and refer to the mandatory punishment the court-martial could
direct. See UCMJ arts. 106 and 118. That is, by their own terms,
the other mandatory minimums are a limit on the court-martial,
not the CCA. By contrast, the language of Article 56(b), UCMJ,
directs the “punishment” must include, in this case, a
dishonorable discharge. Thus appellant’s argument is weaker
here than it would be with respect to the mandatory minimum
sentence for premeditated murder contained in Article 118,
UCMJ.
21

34a
question of whether appellant’s sentence “should be
approved” in the absence of an applicable mandatory
minimum.
CONCLUSION
Upon consideration of the entire record, the
findings of guilty and the sentence are AFFIRMED.
Chief Judge RISCH, Senior Judge TOZZI, Senior
Judge MULLIGAN, Judge HERRING, and Judge
FEBBO concur.
Senior Judge CAMPANELLA, concurring in the
judgment, joined by Judge CELTNIEKS, Judge
PENLAND, and Judge BURTON:
The majority reads the recent amendment to
Article 56, UCMJ, too broadly, and this reading
results in construing the court’s Article 66, UCMJ,
authority too narrowly. While the ultimate judgment
of not providing relief for sentence appropriateness is
sound in this case, the foundation upon which the
majority judgment is based is flawed.
In concluding this court has no power to examine
the sentence appropriateness of a trial court’s
issuance of a mandatory dishonorable discharge, the
majority disregards three things. First, the majority
disregards the language of the statute mandating a
dishonorable discharge; second, they ignore the
purpose behind the change in the statute; and finally
they discount the precedents regarding the Article 66,
UCMJ, authority of a service court of criminal appeal.
Article 66(c), UCMJ, provides this court “may
affirm only such findings of guilty and the sentence or
such part or amount of the sentence, as it finds correct
in law and fact and determines, on the basis of the
entire record, should be approved.” (Emphasis added).

35a
The plain language of this provision effectively
establishes a three-pronged constraint on our
authority to affirm. To affirm the findings and
sentence, we must be satisfied that the findings and
sentence are: 1) “correct in law,” and 2) “correct in
fact.” However, even if these first two prongs are
satisfied, we “may affirm only so much of the findings
and sentence as we determine, on the basis of the
entire record, should be approved.” United States v.
Nerad, 67 M.J. 748, 751 (C.A.A.F. 2009) (emphasis
added).
This power has been described as “an awesome,
plenary, de novo power of review” that we may use to
substitute our judgment for that of the trial judge.
United States v. Cole, 31 M.J. 270, 272 (C.A.A.F.
1990). “A clearer carte blanche to do justice would be
difficult to express.” United States v. Claxton, 32 M.J.
159, 162 (C.M.A. 1991) (citations omitted) (emphasis
added). “If the Court . . . in the interest of justice,
determines that a certain finding or sentence should
not be approved . . . the Court need not approve such
finding or sentence.” Id. While cases have addressed
this power within the context of sentence
appropriateness determinations, the plain language
of the statute, and the quoted decisions, make clear
this court’s power is not limited to that application.
The majority opinion, likely for the first time ever,
finds there is now one area where our “carte blanche”
is no longer accepted.
Prior to the recent amendments, the convening
authority could reduce the sentence of an accused as
a matter of clemency.22 Congress recently restricted
22 This power included the authority to set aside the mandatory
minimum punishment of life in prison required by Article 118,

36a
the convening authority's power. National Defense
Authorization Act for Fiscal Year 2017, Pub. L. 114328, § 5322 (2016) (Limited Authority to Act on
Sentence in Specified Post-Trial Circumstances). The
new Article 60a, UCMJ, generally limits the
convening authority's clemency powers to minor
offenses and punishments. Id.
Congress, however, neither explicitly nor
implicitly, restricted our authority under Article 66,
UCMJ, to review a mandated sentence of dishonorable
discharge for sentence appropriateness and determine
whether it “should be approved.”
Having thus reached the question the majority
avoids, in this case a dishonorable discharge is
appropriate and therefore should be approved.
FOR THE COURT:
MALCOLM H. SQUIRES, JR.
Clerk of Court

UCMJ. As the majority points out, the mandatory minimum
punishment in Article 118, UCMJ, is a limitation on the
courtmartial’s sentencing authority, not a limitation on the
convening authority or this court.

37a

UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
_______________
UNITED STATES
Appellee
v.
Eric F. KELLY, Sergeant
United States Army, Appellant
No. 17-0559
Crim. App. No. 20150725
Argued March 22, 2018—Decided May 23, 2018
Military Judge: David H. Robertson
For Appellant: Zachary Spilman, Esq. (argued);
Lieutenant Colonel Christopher D. Carrier (on brief);
Captain Oluwaseye Awoniyi.
For Appellee: Captain Joshua B. Banister (argued);
Lieutenant Colonel Eric K. Stafford and Captain
Austin L. Fenwick (on brief); Major Virginia H.
Tinsley.
Amicus Curiae for the Air Force Appellate Defense
Division: Colonel Jane E. Boomer, USAF and Brian
L. Mizer, Esq. (in support of Appellant’s petition for
grant of review).
Amicus Curiae for the Navy-Marine Corps Appellate
Defense Division: Captain Andrew R. House, JAGC,
USN (in support of Appellant’s petition for grant of
review).

38a
Chief Judge STUCKY delivered the opinion of the
Court, in which Judges RYAN, OHLSON, SPARKS,
and MAGGS, joined.
_______________
Chief Judge STUCKY delivered the opinion of the
Court.
Today, we reconcile two Uniform Code of Military
Justice (UCMJ) provisions that, at first blush, are
seemingly at odds: Article 56(b), UCMJ, 10 U.S.C. §
856(b) (2012 & Supp. I 2014), which mandates that an
accused convicted of certain offenses be punished with
a dismissal or dishonorable discharge, and Article
66(c), UCMJ, 10 U.S.C. § 866(c) (2012), which vests
the Courts of Criminal Appeals (CCAs) with broad
discretionary
power
to
review
sentence
appropriateness.
On appeal below, the United States Army Court of
Criminal Appeals (ACCA) held that it lacked the
authority to reduce a mandatory minimum sentence.
We disagree. Given the unrivaled statutory powers of
the CCAs, we hold that Article 56(b), UCMJ, does not
restrict a CCA’s ability to review a mandatory
minimum sentence for sentence appropriateness.11

1 After we granted review of the assigned issue, this Court
further specified the issue of whether the ACCA appropriately
applied waiver rather than forfeiture when Appellant failed to
object to improper argument. United States v. Kelly, 77 M.J. 137
(C.A.A.F. 2017) (order granting review). The issue has recently
been decided in our opinion in United States v. Andrews, __ M.J.
__ (C.A.A.F. 2018), which held that forfeiture applies. The ACCA
thus erred in applying waiver in Appellant’s case. Appellant was
not prejudiced, however, as the ACCA still conducted a plain
error review and deemed the error not clear or obvious. United

39a
I. Background and Procedural History
Appellant’s convictions stem from a single night in
December 2014, when Appellant fondled Sergeant
RK’s breast while she slept and proceeded to have sex
with her despite her resistance.
For this conduct, a panel of members with enlisted
representation convicted Appellant, contrary to his
pleas, of one specification of abusive sexual contact
and one specification of sexual assault in violation of
Article 120, UCMJ, 10 U.S.C. § 920 (2012). The panel
sentenced Appellant to a dishonorable discharge,
confinement for one year, forfeiture of all pay and
allowances, and reduction to the lowest enlisted
grade. The convening authority approved the
adjudged sentence but suspended the adjudged
forfeitures and waived automatic forfeitures for two
months and seven days for the benefit of Appellant’s
dependents.
On appeal before the ACCA, Appellant argued that
the mandatory minimum sentence of a punitive
discharge was inappropriately severe. Regarding
itself as powerless to provide relief in the face of an
applicable mandatory minimum sentence, the en banc
ACCA, in a sharply divided 6-4 vote, affirmed, and did
not reach the question of whether Appellant’s
sentence “ ‘should be approved.’ ” Kelly, 76 M.J. at 807.
II. The Law
A. The Article 66 Power of the CCAs
The CCAs were established at the behest of
Congress by the Judge Advocates General. Article
States v. Kelly, 76 M.J. 793, 798–800 (A. Ct. Crim. App. 2017) (en
banc).

40a
66(a), UCMJ. As Article I courts, they enjoy limited
jurisdiction, and are circumscribed by the
Constitution to the powers specifically granted to
them by statute. See United States v. Lopez de
Victoria, 66 M.J. 67, 69 (C.A.A.F. 2008).
The scope of the CCAs’ authority as to sentencing
is contained in Article 66(c), UCMJ, which provides,
in relevant part, that a CCA “may affirm only such
findings of guilty, and the sentence or such part or
amount of the sentence, as it finds correct in law and
fact and determines, on the basis of the entire record,
should be approved.” This Court has recognized that
it is a “settled premise” that in exercising this
statutory mandate, a CCA has discretion to approve
only that part of a sentence that it finds “should be
approved,” even if the sentence is “correct” as a matter
of law. United States v. Nerad, 69 M.J. 138, 142
(C.A.A.F. 2010); see United States v. Atkins, 8 C.M.A.
77, 79, 23 C.M.R. 301, 303 (1957) (“In short, the
criterion for the exercise of the board of review’s power
over the sentence is not legality alone, but legality
limited by appropriateness.” (citation omitted)). Given
their “awesome, plenary, de novo power of review,”
United States v. Cole, 31 M.J. 270, 272 (C.M.A. 1990),
it is little wonder that this Court has described the
CCAs as having a “carte blanche to do justice.” United
States v. Claxton, 32 M.J. 159, 162 (C.M.A. 1991).
B. Mandatory Minimums Under Article 56
In 2013, Congress amended Article 56, UCMJ, to
provide for mandatory minimum punitive discharges
in cases involving rape, sexual assault, forcible
sodomy, and attempts to commit such offenses.
National Defense Authorization Act for Fiscal Year

41a
2014, Pub. L. No. 113-66, § 1705, 127 Stat. 672, 959
(2013).
Article 56(b), UCMJ, provides:
(b)(1) While a person subject to this chapter
who is found guilty of an offense specified in
paragraph (2) shall be punished as a general
court-martial may direct, such punishment
must include, at a minimum, dismissal or
dishonorable discharge, except as provided for
in section 860 of this title (article 60).
(2) Paragraph (1) applies to the following
offenses:
(A) An offense in violation of subsection (a)
or (b) of section 920 of this title (article
120(a) or (b)).
10 U.S.C. § 856(b) (2012 & Supp. I 2014).
Article 56(b), UCMJ, expressly provides that the
convening authority may disapprove or commute such
a mandatory minimum sentence in certain limited
circumstances. See id.; see also Article 60(c)(4)(B)–(C),
UCMJ, 10 U.S.C. § 860(c)(4)(B)–(C) (Supp. I 2014).
Article 56(b) does not, however, call into question the
vast powers of the CCAs or indeed reference Article
66(c), UCMJ, at any point.
III. Discussion
The construction of a statute is a question of law
we review de novo. Lopez de Victoria, 66 M.J. at 73. “It
is a fundamental canon of statutory construction that
the words of a statute must be read in their context
and with a view to their place in the overall statutory
scheme.” FDA v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 133 (2000) (internal quotation marks

42a
omitted) (citation omitted). As such, “[t]his Court
typically seeks to harmonize independent provisions
of a statute.” United States v. Christian, 63 M.J. 205,
208 (C.A.A.F. 2006).
In the instant case, Article 56(b), UCMJ, and
Article 66(c), UCMJ, initially appear to be in tension.
However, the two provisions may be harmonized by
construing Article 56(b) as a limit on the courtmartial, not on any of the reviewing authorities. We
have previously elected to treat mandatory minimum
sentences as such. For example, in United States v.
Jefferson, this Court declined to construe Article 118’s
mandatory minimum punishment as an absolute
minimum, and instead interpreted it as applying only
to the court-martial, thus leaving appellate
authorities “free to reappraise the appropriateness of
the sentence in the normal exercise of their review
powers.” 7 C.M.A. 193, 194, 21 C.M.R. 319, 320 (1956).
On that basis, this Court concluded that a board of
review could ameliorate a mandatory sentence
without first changing the findings of guilty. Id.; see
Atkins, 8 C.M.A. at 79, 23 C.M.R. at 303 (“[T]he desire
of Congress to have the board of review determine the
appropriateness of a sentence is so strongly stated we
concluded that a board of review can even ameliorate
a sentence which the Uniform Code makes mandatory
for the court-martial.”).
Such treatment gives full force and effect to both
Article 56(b), UCMJ, and Article 66(c), UCMJ.
Moreover, it recognizes that Congress has vested the
CCAs with the oft-cited “awesome, plenary, de novo
power of review,” Cole, 31 M.J. at 272, that effectively
gives them “carte blanche to do justice.” Claxton, 32
M.J. at 162.

43a
The CCAs and their predecessors have enjoyed this
discretion over sentence appropriateness since the
inception of the UCMJ. See Article 66(c), UCMJ, 50
U.S.C. § 653(c) (Supp. IV 1951), repealed by Act of
Aug. 10, 1956, ch. 1041, § 53, 70A Stat. 1, 641.2 This
power “has no direct parallel in the federal civilian
sector,” and no other federal appellate court, including
ours, in the American criminal justice system
possesses the same power. United States v. Lacy, 50
M.J. 286, 288 (C.A.A.F. 1999); see Article 67(c), UCMJ,
10 U.S.C. § 867(c) (2012) (“In any case reviewed by it,
the Court of Appeals for the Armed Forces may act
only with respect to the findings and sentence as
approved by the convening authority and as affirmed
or set aside as incorrect in law by the Court of
Criminal Appeals.… The Court of Appeals for the
Armed Forces shall take action only with respect to
matters of law.”).
It has not escaped our attention that, while
Congress has made many changes to the UCMJ over
the years, Congress has left Article 66(c) largely
intact. Its language remains functionally unchanged
since the UCMJ’s enactment in 1950. See Article
66(c), UCMJ, 50 U.S.C. § 653(c) (Supp. IV 1951) (now
at 10 U.S.C. § 866(c) (2012)); see National Defense
Authorization Act for Fiscal Year 2017, Pub. L. No.
114-328, § 5330(d)(1), 130 Stat. 2000, 2933 (2016)
(leaving the CCAs’ power to review sentence
appropriateness intact). Although Congress has seen
fit to impose several new limits on a convening
authority’s power, it has not, to date, similarly
A similar version of Article 66(c), with language closely tracking
that of the version codified in 50 U.S.C. § 653(c), was enacted
concurrently with the repeal of 50 U.S.C. § 653(c). Act of Aug. 10,
1956, ch. 1041, § 866(c), 70A Stat. 1, 59.
2

44a
constrained the CCAs. See National Defense
Authorization Act for Fiscal Year 2014, § 1702, 127
Stat. at 956 (restricting a convening authority’s power
to disapprove, commute, or suspend in whole or in
part sentences in excess of six months or a sentence of
dismissal, dishonorable discharge, or bad-conduct
discharge) (codified at 10 U.S.C. § 860(c)(4)(A) (Supp.
I 2014)).
For the foregoing reasons, we decline the
Government’s invitation to read an implied repeal of
the CCAs’ vast powers into Article 56(b), UCMJ.
Congress is presumed to know the law. See United
States v. Kick, 7 M.J. 82, 85 (C.M.A. 1979) (“It is
reasonable to assume that Congress was aware of the
existence of such military law when performing its
constitutional task to make laws for the armed
forces.”); see also Cannon v. University of Chicago, 441
U.S. 677, 696–97 (1979) (“It is always appropriate to
assume that our elected representatives, like other
citizens, know the law.…”). As such, we presume
Congress was aware of Article 66(c)’s broad scope
when it enacted Article 56 and thus would have
explicitly limited Article 66(c) review if it so desired.
We trust that Congress knows how to limit the broad
powers of the CCAs and note that Congress remains
free to do so if it so chooses. To date, Congress has not
so chosen. Until (and unless) it does, we hold that a
CCA has the power to disapprove a mandatory
minimum sentence set forth in Article 56, UCMJ.
IV. Judgment
The judgment of the United States Army Court of
Criminal Appeals is set aside. The record of trial is
returned to the Judge Advocate General of the Army
for remand to the United States Army Court of

45a
Criminal Appeals for an assessment of sentence
appropriateness pursuant to Article 66(c), UCMJ, 10
U.S.C. § 866(c) (2012), consistent with this decision.

46a
CORRECTED COPY

UNITED STATES ARMY COURT OF
CRIMINAL APPEALS
Before the Court Sitting En Banc1
UNITED STATES, Appellee
v.
Sergeant ERIC F. KELLY
United States Army, Appellant
ARMY 20150725
Headquarters, 21st Theater Sustainment Command
David H. Robertson, Military Judge
Major Michael P. Baileys, Acting Staff Judge
Advocate (pretrial)
Colonel Paula I. Schasberger, Staff Judge Advocate
(post-trial)
For Appellant: Zachary Spilman, Esquire (argued);
Lieutenant Colonel Christopher D. Carrier, JA;
Zachary Spilman, Esquire (on brief and reply brief).
For Appellee: Captain Sandra Ahinga, JA2 (argued);
Colonel Steven P. Haight, JA; Lieutenant Colonel Eric
K. Stafford, JA; Major Wayne H. Williams, JA;
Captain Joshua Banister, JA (on brief).
30 November 2018

1 Judge Schasberger took no part in this case as a result of her
disqualification.
2

Corrected.

47a
--------------------------------OPINION OF THE COURT ON REMAND
---------------------------------

WOLFE, Judge:
We issued an initial decision on this case on 5 July
2017. In our initial decision, we determined that we
lacked the authority to set aside a dishonorable
discharge that was a mandatory sentence under
Article 56(b) of the Uniform Code of Military Justice
(UCMJ), 10 U.S.C. § 856(b) (2012 & Supp. I 2014).
United States v. Kelly, 76 M.J. 793, 806-07 (Army Ct.
Crim. App. 2017). Accordingly, because we viewed our
authority as limited, we declined to consider whether
appellant’s
dishonorable
discharge
was
an
appropriate sentence under Article 66(c), UCMJ, 10
U.S.C. § 866(c) (2012). Id. at 807. The Court of Appeals
for the Armed Forces (CAAF) disagreed, determined
we did have the power to set aside a mandatory
punitive discharge, and remanded the case back to us.
United States v. Kelly, 77 M.J. 404 (C.A.A.F. 2018).
The circumstances of this case are adequately laid
out in our initial opinion. See Kelly, 77 M.J. at 795-96.
DISCUSSION
A. The Scope of the Remand
The threshold issue we must decide today is the

48a
scope of the CAAF’s remand.3 Appellant argues that
the remand is broad and that we must consider
additional assignments of error that he has submitted
on appeal, and determine whether the findings and
sentence are correct in law and fact, and should be
approved. The government, by contrast, argues that
the scope of the CAAF’s remand is narrow.
We begin with a discussion of our superior court’s
opinion.
1. The Decision by the Court of Appeals for the
Armed Forces
After we issued our initial opinion, the CAAF
granted review on two unrelated issues.
The first, as discussed above, was to determine
whether our authority under Article 66(c), UCMJ,
extends to setting aside mandatory dishonorable
discharges. We determined we lacked that authority.
The CAAF found we had erred. Kelly, 77 M.J. at 408.
The second issue was whether we had erred in
applying the wrong standard when reviewing the case
for improper argument. The second issue included
claims of error in both the findings and sentencing
argument. The CAAF found that we had erred in
applying waiver, but that “[a]ppellant was not
prejudiced” by the error as we had also tested for plain
error. Kelly, 77 M.J. at 405 n.1.
Having resolved the two claims, the CAAF
returned the case to this court. We begin our analysis,

3 The court sitting en banc heard oral argument on this issue on
13* November 2018.

* Corrected

49a
as we must, with the plain language of our superior
court’s order. The CAAF’s order stated, in its entirety:
The judgment of the United States Army Court
of Criminal Appeals [(ACCA)] is set aside. The
record of trial is returned to the Judge Advocate
General of the Army for remand to the United
States Army Court of Criminal Appeals for an
assessment of sentence appropriateness
pursuant to Article 66(c), UCMJ, 10 U.S.C. §
866(c) (2012), consistent with this decision.
Id. at 408. Broadly, appellant focuses on the first line
of the order. The government focuses on the second.
We will take each clause in turn.
2. “The judgment of [ACCA] is set aside.”
Appellant argues that when the CAAF set aside
our “judgment,” the CAAF’s order necessarily set
aside both our affirmance of the findings and
sentence. If no findings are currently affirmed, so goes
appellant’s argument, we must affirm or set aside the
findings so that the case may progress through the
appellate process under Articles 66 and 71, UCMJ. So,
if we must consider anew the findings, we must
address appellant’s additional assignments of error.
Appellant further notes that the CAAF has, in other
cases, specifically affirmed the findings while
simultaneously setting aside the sentence and
remanding the case for additional proceedings. See,
e.g., United States v. Jerkins, 77 M.J. 225, 229
(C.A.A.F. 2018); United States v. Chikaka, 76 M.J.
310, 314 (C.A.A.F. 2017). Appellant asserts that
because the CAAF did not do so in this case, they did
not intend for our review to be limited.
Appellant’s argument is persuasive when the
reader is limited to the first sentence of the remand.

50a
It is also a persuasive understanding of the
intersection of Articles 66, 67 and 71, UCMJ. But we
see that reading as inconsistent when read with the
history of the case.
The CAAF’s opinion addressed only one alleged
error of law that would affect the findings in this case.4
That issue was the alleged improper findings
argument by the trial counsel. However, the CAAF
resolved that error in a footnote, granted no relief, and
found appellant had not been prejudiced. Kelly, 76
M.J. at 405 n.1. We see no legal basis in the CAAF’s
opinion that supports that CAAF set aside our
findings decision based on an error of law. To read
their remand as a decision setting aside the findings
without an error of law would be inconsistent with our
understanding of how military appellate courts review
errors of law. See Article 67(c), UCMJ, 10 U.S.C. §
867(c) (2012) (“The [CAAF] shall take action only with
respect to matters of law.”); Article 59(a), UCMJ, 10
U.S.C. § 859(a) (2012) (establishing the standard for
reversing findings based on errors of law).
We can resolve this tension by turning to our
superior court’s decision in United States v. Ginn, 47
M.J. 236 (C.A.A.F. 1997). Although appellant argues
that it is only persuasive authority, there the CAAF
explained how we should treat their remands:
When this Court sets aside the decision of a
Court of Criminal Appeals and remands for
further consideration, we do not question the
correctness of all that was done in the earlier
opinion announcing that decision. All that is to
CAAF was presented with additional multiple assignments of
error by appellant regarding the findings phase but did not grant
review.
4

51a
be done on remand is for the court below to
consider the matter which is the basis for the
remand and then to add whatever discussion is
deemed appropriate to dispose of that matter in
the original opinion. The original decretal
paragraph of the Court of Military Review’s
opinion . . . is not affected by the set-aside order
unless resolution of the matter which is the
subject of the remand dictates a different result.
The amended opinion then becomes the
decision which is subject to our review. This
procedure does not permit or require starting
the review process anew or setting aside action
favorable towards an accused on other grounds.
Ginn, 47 M.J. at 238 n.2 (citation omitted) (emphasis
added). Under the framework announced by Ginn our
initial decision affirming the findings “is not affected”
by the CAAF’s decision, unless reexamining findings
is necessary for the purpose of the remand. See id. As
the purpose of the remand was for an “assessment of
sentence appropriateness,” a reexamination of
findings is not required, and perhaps may not be
“permit[ted].” See id.
3. “The record of trial is returned
to [ACCA] . . . .”
The CAAF’s rules of court distinguish between
when the CAAF remands “the case” and when the
CAAF remands the “record of trial.” Rules of Practice
and Procedure United States Court of Appeals for the
Armed Forces, [C.A.A.F. R.] R. 30A (as amended
through June 22, 2017). The CAAF “may . . . order a
remand of the case or the record to the Court of
Criminal Appeals.” Id. (Emphasis added). There is a

52a
significant difference between remanding the case
and remanding the record. The rule explains:
If the record is remanded, the [CAAF] retains
jurisdiction over the case. If the case is
remanded, the [CAAF] does not retain
jurisdiction, and a new petition for grant of
review or certificate for review will be
necessary if a party seeks review of the
proceedings conducted on remand.
Id. Here, the CAAF remanded the record of trial, not
the case. If we read this correctly,5 our authority in
this case is limited, as the CAAF has retained
jurisdiction over the case. Or put differently, our
jurisdiction on the case only extends to the subject of
the remand.
4. “[F]or an assessment of sentence
appropriateness . . . .”
All parties agree that the CAAF’s remand clearly
mandates that this court must conduct a sentence
appropriateness review. The disagreement is on what
else we may (or must) do.
The closest case law we have found on point is
appellate litigation of United States v. Riley, 47 M.J.
603 (A.F. Ct. Crim. App. 1997). The CAAF would

The quoted language is from the CAAF’s rule on remands for
factfinding. The remand here was for a sentence appropriateness
review. While sentence appropriateness review may involve
factfinding, and is part of our broad Article 66(c) authority, we
do not see it as a pure question of fact. While we see no reason
why the CAAF would use the same language differently when
remanding a case for a sentence appropriateness review, we are
cautious about reading too much from our interpretation of our
superior court’s rules.
5

53a
eventually issue three opinions in that case.6 It is the
first two, however, that shed light on our issue here.
Broadly, when the case returned to CAAF after a
remand, the CAAF in Riley II found that the Air Force
Court of Criminal Appeals (AFCCA) had exceeded the
scope of the remand when they used their Article 66(c)
factfinding authority to address matter not required
by the remand. See Riley II, 55 M.J. at 187-89.
When Riley was first at the AFCCA, our sister
court found the evidence of murder to be factually
insufficient. 47 M.J. at 608. However, the AFCCA
affirmed a lesser-included offense of involuntary
manslaughter by culpable negligence. Id.
At CAAF, the issue in Riley I was whether it was
permissible to convict the accused on a theory of
manslaughter that had not been presented to the
panel. 50 M.J. at 415-16. The CAAF found that
AFCCA erred by affirming the conviction of the lesserincluded offense. Id. at 416. The CAAF then requested
clarification from AFCCA on the findings because it
was unclear whether the AFCCA also found evidence
factually insufficient to support a conviction of a
lesser-included offense premised on a different theory.
Id. The CAAF in Riley I returned the case to the
AFCCA using language similar to the remand we
received in this case:
The decision of the United States Air Force
Court of Criminal Appeals is reversed. The
record of trial is returned . . . for remand to the
Court of Criminal Appeals for clarification of its
holding and reconsideration consistent with the
United States v. Riley, 50 M.J. 410 (C.A.A.F. 1999) [Riley I];
United States v. Riley, 55 M.J. 185 (C.A.A.F. 2001) [Riley II];
United States v. Riley, 58 M.J. 305 (C.A.A.F. 2003) [Riley III].

6

54a
principles of due process set out [in the
opinion].
Id.
On remand from Riley I, the AFCCA concluded
that it lacked the power to revisit its earlier finding
that the evidence was insufficient to support the
unpremeditated murder conviction. United States v.
Riley, 52 M.J. 825, 827 (A.F. Ct. Crim. App. 2000).
Acting under the belief that the case had been
returned with their full Article 66(c) authority intact,
the AFCCA affirmed a conviction of involuntary
manslaughter, this time based on facts presented to
the panel. Id. at 828-30. In doing so, AFCCA
reconsidered and modified its previous findings of
fact, rather than clarifying the findings as the CAAF’s
order directed. See Riley II, 55 M.J. at 189.
When the case returned to the CAAF, the first
issue in Riley II was whether the AFCCA had the
power to reinstate the original conviction for
unpremeditated murder.7 Id. at 187. The CAAF held
that under the terms of the original remand, the
AFCCA was not permitted to reconsider its finding
that the evidence of unpremeditated murder was not
factually sufficient.8 Id. at 188. The CAAF stated that

The CAAF also considered three additional issues of law. One
of the additional issues, relevant to this discussion, was whether,
upon a remand from CAAF, a Court of Criminal Appeals (CCA)
may reconsider and change findings of fact favorable to the
defense, if it concludes on reconsideration that its earlier findings
of fact were clearly erroneous. Riley II, 55 M.J. at 187.
7

8 The CAAF found two reasons why the AFCCA did not have the
power to reinstate the original conviction, only one of which was
that the CCA had exceeded the scope of the remand. See Riley II,

55a
“a Court of Criminal Appeals ‘can only take action
that conforms to the limitations and conditions
prescribed by the remand.’” Id. (quoting United States
v. Montesinos, 28 M.J. 38, 44 (C.M.A. 1989)). The
CAAF concluded, “[a] mandate to clarify whether the
evidence was insufficient to support a lesser-included
offense cannot reasonably be construed to permit
reinstatement of the greater offense.” Riley II, 55 M.J.
at 188.
Addressing the remaining assignments of error,
the CAAF also found that the lower court erred when
it reconsidered factual determinations made in its
initial opinion. See id. at 189. As a result, the CAAF
found that the AFCCA exceeded the authority of the
remand. Id. The CAAF reiterated the scope of the
remand and stated, “a mandate to clarify a finding . .
. does not encompass overturning that finding and
substituting specific findings . . . .” Id.
Applying the CAAF’s reasoning in Riley II to this
case, the scope of the remand is limited to determining
the appropriateness of the appellant’s sentence in
light of our superior court’s decision in this case. A
remand
“for
an
assessment
of
sentence
appropriateness” cannot “reasonably be construed” to
include consideration of issues that only affect the
findings. If for example, we were to consider an
assignment of error that went only to findings, and
used our fact-finding authority under Article 66(c),
UCMJ, to assist in resolving the error, it would be

55 M.J. at 188. However, we do not see the CAAF’s language as
being dicta, as it was a specific holding of our superior court.

56a
hard to distinguish our action from the AFCCA’s
improper actions in Riley.9
Having construed the remand, we now turn to the
issue of whether appellant’s sentence to a
dishonorable discharge for abusive sexual contact and
sexual assault is an appropriate punishment.
B. The Sentence is Appropriate.
Appellant argues that his sentence to a
dishonorable discharge is inappropriately severe
when considering the facts of his case. We disagree.
Article 66(c), UCMJ, provides, in relevant part,
that we “may affirm . . . the sentence or such part or
amount of the sentence, as [we] find correct in law and
fact and determine[], on the basis of the entire record,
should be approved.” Stated another way, we must
determine whether we personally find appellant’s
sentence to be appropriate. See United States v. Baier,
60 M.J. 382, 384 (C.A.A.F. 2005). In making this
assessment, we give “individualized consideration of
the particular accused on the basis of the nature and
seriousness of the offenses and the character of the
offender.” United States v. Snelling, 14 M.J. 267, 268
(C.M.A. 1982) (citations omitted).
At oral argument, appellant noted that a narrow reading of the
CAAF’s mandate could prevent this court from addressing case
dispositive developments in the law. See, e.g., United States v.
Hills, 75 M.J. 350 (C.A.A.F. 2016). In such a case, nothing would
prevent us from noting the issue and suggesting to the CAAF
that the case might be returned to this court with an expanded
mandate. Or, if a remand is viewed as too narrow, an appellant
can also request reconsideration of the CAAF’s opinion and seek
an expanded remand. These actions reflect that it is the CAAF
that controls the scope of the remand, not the parties or this
Court.
9

57a
Appellant stands convicted of abusive sexual
contact and sexual assault of a fellow soldier. For
these offenses, he received a sentence to a
dishonorable reduction to the grade of E-1.
Appellant faced thirty-seven years confinement
based on his convictions. In our review of the record,
the sentence to confinement for one year was more
than appropriate, if not lenient. Likewise, a
dishonorable discharge, in our assessment, remains
appropriate when considering not only the appellant,
but the seriousness of his crimes.
For these reasons, we find appellant’s sentence, to
include the dishonorable discharge, appropriate.
CONCLUSION
Upon consideration of the matters remanded to
this court, the findings of guilty and the sentence
remain AFFIRMED. The Clerk of Court is directed to
return the record of trial to the CAAF.
Chief Judge BERGER, Senior Judge MULLIGAN,
Senior Judge BURTON, Judge FEBBO, Judge
SALUSSOLIA,
Judge
HAGLER,
Judge
ALDYKIEWICZ, and Judge FLEMING concur.
FOR THE COURT:
MALCOLM H. SQUIRES, JR.
Clerk of Court

58a

UNITED STATES ARMY COURT OF
CRIMINAL APPEALS
Before the Court Sitting En Banc1
UNITED STATES, Appellee
v.
Sergeant ERIC F. KELLY
United States Army, Appellant
ARMY 20150725
------------ORDER
------------Per Curiam:
On consideration of appellant's "Motion for
Reconsideration" filed 28 December 2018, appellant's
request for reconsideration is DENIED.
DATE: 10 January 2019
FOR THE COURT:
MALCOLM H. SQUIRES, JR.
Clerk of Court
CF:

JALS-DA
JALS-GA
JALS-CCR

JALS-CCZ
JALS-CR4
Zachary Spilman, Esquire

Judge Schasberger took no part in this case as a result of her
disqualification.
1

59a
United States Court of Appeals
for the Armed Forces
Washington, D.C.
United States,
Appellee

USCA Dkt. No. 19-0156/AR
Crim.App. No. 20150725

v.
ORDER DENYING
PETITION
Eric F.
Kelly,
Appellant
On consideration of the petition for grant of
review of the decision of the United States Army
Court of Criminal Appeals, it is by the Court, this
26th day of July, 2019,
ORDERED:
That the petition is hereby denied.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Army
Appellate Defense Counsel (Spilman)
Appellate Government Counsel (Ahinga)

60a
United States Court of Appeals
for the Armed Forces
Washington, D.C.
United States,
Appellee

USCA Dkt. No. 19-0156/AR
Crim.App. No. 20150725

v.
ORDER
Eric F.
Kelly,
Appellant
On consideration of Appellant's petition for
reconsideration of the Court's order issued July 26,
2019, it is, by the Court, this 16th day of September,
2019, ORDERED:
That the petition for reconsideration is hereby
denied.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Army
Appellate Defense Counsel (Spilman)
Appellate Government Counsel (Ahinga)

61a
10 U.S.C. § 866. Art. 66. Review by Court of
Criminal Appeals
(a)Each Judge Advocate General shall establish a
Court of Criminal Appeals which shall be composed of
one or more panels, and each such panel shall be
composed of not less than three appellate military
judges. For the purpose of reviewing court-martial
cases, the court may sit in panels or as a whole in
accordance with rules prescribed under subsection (f).
Any decision of a panel may be reconsidered by the
court sitting as a whole in accordance with such rules.
Appellate military judges who are assigned to a Court
of Criminal Appeals may be commissioned officers or
civilians, each of whom must be a member of a bar of
a Federal court or of the highest court of a State. The
Judge Advocate General shall designate as chief judge
one of the appellate military judges of the Court of
Criminal Appeals established by him. The chief judge
shall determine on which panels of the court the
appellate judges assigned to the court will serve and
which military judge assigned to the court will act as
the senior judge on each panel.
(b)The Judge Advocate General shall refer to a Court
of Criminal Appeals the record in each case of trial by
court-martial—
(1)in which the sentence, as approved, extends
to death, dismissal of a commissioned officer,
cadet, or midshipman, dishonorable or badconduct discharge, or confinement for one year
or more; and
(2)except in the case of a sentence extending to
death, the right to appellate review has not
been waived or an appeal has not been

62a
withdrawn under section 861 of this title
(article 61).
(c)In a case referred to it, the Court of Criminal
Appeals may act only with respect to the findings and
sentence as approved by the convening authority. It
may affirm only such findings of guilty, and the
sentence or such part or amount of the sentence, as it
finds correct in law and fact and determines, on the
basis of the entire record, should be approved. In
considering the record, it may weigh the evidence,
judge the credibility of witnesses, and determine
controverted questions of fact, recognizing that the
trial court saw and heard the witnesses.
(d)If the Court of Criminal Appeals sets aside the
findings and sentence, it may, except where the
setting aside is based on lack of sufficient evidence in
the record to support the findings, order a rehearing.
If it sets aside the findings and sentence and does not
order a rehearing, it shall order that the charges be
dismissed.
(e)The Judge Advocate General shall, unless there is
to be further action by the President, the Secretary
concerned, the Court of Appeals for the Armed Forces,
or the Supreme Court, instruct the convening
authority to take action in accordance with the
decision of the Court of Criminal Appeals. If the Court
of Appeals for the Armed Forces has ordered a
rehearing but the convening authority finds a
rehearing impracticable, he may dismiss the charges.
(f)The Judge Advocates General shall prescribe
uniform rules of procedure for Courts of Criminal
Appeals and shall meet periodically to formulate
policies and procedure in regard to review of court-

63a
martial cases in the offices of the Judge Advocates
General and by Courts of Criminal Appeals.
(g)No member of a Court of Criminal Appeals shall be
required, or on his own initiative be permitted, to
prepare, approve, disapprove, review, or submit, with
respect to any other member of the same or another
Court of Criminal Appeals, an effectiveness, fitness,
or efficiency report, or any other report or document
used in whole or in part for the purpose of determining
whether a member of the armed forces is qualified to
be advanced in grade, or in determining the
assignment or transfer of a member of the armed
forces, or in determining whether a member of the
armed forces should be retained on active duty.
(h)No member of a Court of Criminal Appeals shall be
eligible to review the record of any trial if such
member served as investigating officer in the case or
served as a member of the court-martial before which
such trial was conducted, or served as military judge,
trial or defense counsel, or reviewing officer of such
trial.

64a
10 U.S.C. § 867. Art. 67. Review by the Court of
Appeals for the Armed Forces
(a)The Court of Appeals for the Armed Forces shall
review the record in—
(1)all cases in which the sentence, as affirmed
by a Court of Criminal Appeals, extends to
death;
(2)all cases reviewed by a Court of Criminal
Appeals which the Judge Advocate General
orders sent to the Court of Appeals for the
Armed Forces for review; and
(3)all cases reviewed by a Court of Criminal
Appeals in which, upon petition of the accused
and on good cause shown, the Court of Appeals
for the Armed Forces has granted a review.
(b)The accused may petition the Court of Appeals for
the Armed Forces for review of a decision of a Court of
Criminal Appeals within 60 days from the earlier of-(1)the date on which the accused is notified of
the decision of the Court of Criminal Appeals;
or
(2)the date on which a copy of the decision of
the Court of Criminal Appeals, after being
served on appellate counsel of record for the
accused (if any), is deposited in the United
States mails for delivery by first-class certified
mail to the accused at an address provided by
the accused or, if no such address has been
provided by the accused, at the latest address
listed for the accused in his official service
record. The Court of Appeals for the Armed
Forces shall act upon such a petition promptly
in accordance with the rules of the court.

65a
(c)In any case reviewed by it, the Court of Appeals for
the Armed Forces may act only with respect to the
findings and sentence as approved by the convening
authority and as affirmed or set aside as incorrect in
law by the Court of Criminal Appeals. In a case which
the Judge Advocate General orders sent to the Court
of Appeals for the Armed Forces, that action need be
taken only with respect to the issues raised by him. In
a case reviewed upon petition of the accused, that
action need be taken only with respect to issues
specified in the grant of review. The Court of Appeals
for the Armed Forces shall take action only with
respect to matters of law.
(d)If the Court of Appeals for the Armed Forces sets
aside the findings and sentence, it may, except where
the setting aside is based on lack of sufficient evidence
in the record to support the findings, order a
rehearing. If it sets aside the findings and sentence
and does not order a rehearing, it shall order that the
charges be dismissed.
(e)After it has acted on a case, the Court of Appeals for
the Armed Forces may direct the Judge Advocate
General to return the record to the Court of Criminal
Appeals for further review in accordance with the
decision of the court. Otherwise, unless there is to be
further action by the President or the Secretary
concerned, the Judge Advocate General shall instruct
the convening authority to take action in accordance
with that decision. If the court has ordered a
rehearing, but the convening authority finds a
rehearing impracticable, he may dismiss the charges.

66a
10 U.S.C. § 876. Art. 76. Finality of proceedings,
findings, and sentences
The appellate review of records of trial provided by
this chapter, the proceedings, findings, and sentences
of courts-martial as approved, reviewed, or affirmed
as required by this chapter, and all dismissals and
discharges carried into execution under sentences by
courts-martial following approval, review, or
affirmation as required by this chapter, are final and
conclusive. Orders publishing the proceedings of
courts-martial and all action taken pursuant to those
proceedings are binding upon all departments, courts,
agencies, and officers of the United States, subject
only to action upon a petition for a new trial as
provided in section 873 of this title (article 73) and to
action by the Secretary concerned as provided in
section 874 of this title (article 74), and the authority
of the President.

